App. 1
FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
ARCONA, INC., a
California corporation,
Plaintiff-Appellant,
v.

No. 19-55586
D.C. No.
2:17-cv-07058ODW-JPR

FARMACY BEAUTY, LLC,
a New Jersey limited liability
company; DAVID C. CHUNG,
an individual; MARK VEEDER,
an individual,

OPINION

Defendants-Appellees.
Appeal from the United States District Court
for the Central District of California
Otis D. Wright II, District Judge, Presiding
Argued and Submitted June 5, 2020
Pasadena, California
Filed October 1, 2020
Before: Kenneth K. Lee and Patrick J. Bumatay,
Circuit Judges, and Donald W. Molloy,* District Judge.
Opinion by Judge Lee

* The Honorable Donald W. Molloy, United States District
Judge for the District of Montana, sitting by designation.

App. 2
COUNSEL
R. Joseph Trojan (argued), Dylan C. Dang, and Francis
Z. Wong, Trojan Law Offices, Beverly Hills, California,
for Plaintiff-Appellant.
Colin Fraser (argued), Greenberg Traurig LLP, Irvine,
California; Jeffrey K. Joyner, Greenberg Traurig LLP,
Los Angeles, California; for Defendants-Appellees.
OPINION
LEE, Circuit Judge:
Arcona, Inc. sued Farmacy Beauty for counterfeiting based on the use of the trademarked term “EYE
DEW” on its skincare products. But apart from that
term, these two companies’ beauty products look
nothing like each other, as their respective packaging
features different shapes, design schemes, text, and
colors. The district court granted summary judgment
for Farmacy, ruling that a reasonable consumer would
not confuse Farmacy’s skincare product with Arcona’s.
The key question presented is whether a trademark
counterfeiting claim requires a likelihood of confusion.
We hold that the plain language of the statute requires
a likelihood of confusion for a counterfeit claim. We
thus affirm the grant of summary judgment.
BACKGROUND
In March 2015, Plaintiff-Appellant Arcona, Inc.
registered the trademark “EYE DEW” for its skincare
products. The trademarked phrase “consists of standard

App. 3
characters without claim to any particular font, style,
size, or color.” Arcona’s EYE DEW product is an eye
cream in a tall, cylindrical, silver bottle encased in a
slim, cardboard outer box. The product features the
phrase “EYE DEW” and the Arcona housemark on both
its bottle and outer box. Arcona sells the product
mainly at Nordstrom in the United States and at
Sephora in Australia and Asia.

In 2014, Defendant-Appellee Farmacy Beauty began developing a line of skincare products, including
an eye cream. Farmacy named the eye cream “EYE
DEW” after a copywriter said that the name was likely
available based on “an initial online search and
uspto.gov trademark lookup.” Farmacy’s EYE DEW

App. 4
product (pictured below) comes in a short, wide, white
jar, along with a squarish outer box. The product features the phrase “EYE DEW” and the Farmacy house
mark on both its jar and outer box. In 2015, Farmacy
began selling EYE DEW in the United States at
Sephora.

In August 2016, Arcona sent Farmacy a cease-anddesist letter informing Farmacy of its “EYE DEW”
trademark and demanding that Farmacy stop selling
its product. The record suggests that Farmacy had
never heard of Arcona and was surprised to receive the
letter. The parties unsuccessfully tried to resolve the
matter.
In September 2017, Arcona sued Farmacy asserting claims of (1) trademark counterfeiting, (2) trademark infringement, (3) unfair competition under
Section 43(a) of the Lanham Act, (4) unfair competition
under California state law, and (5) unfair competition
under California common law. At Arcona’s request, the
district court dismissed with prejudice the trademark
infringement and unfair competition claims.
The district court granted partial summary judgment for Farmacy on the counterfeiting claim. The

App. 5
court reasoned that the only similarity between the
two products was the phrase “EYE DEW.” The court
also found that Arcona “present[ed] no evidence that
the Farmacy house mark on the product, the dissimilar
packaging, and the product itself [did] not nullify
[Arcona]’s counterfeiting claim.” It further held that it
was “implausible that a consumer viewing [Farmacy’s]
EYE DEW product would be tricked into believing that
product is actually one of [Arcona’s] EYE DEW products.”
Arcona timely appealed. We have jurisdiction under 28 U.S.C. § 1291.
STANDARD OF REVIEW
We review a district court’s grant of summary
judgment de novo. Devereaux v. Abbey, 263 F.3d 1070,
1074 (9th Cir. 2001) (en banc). The moving party is
entitled to summary judgment upon a showing that no
genuine issue of material fact exists and that the moving party is entitled to judgment as a matter of law. See
Fed. R. Civ. P. 56(a). We view the facts and inferences
drawn from the facts in the nonmovant’s favor. T.W.
Elec. Serv., Inc. v. Pac. Elec. Contractors Ass’n, 809 F.2d
626, 631–32 (9th Cir. 1987). We may affirm summary
judgment on any grounds supported by the record.
Gemtel Corp. v. Cmty. Redevelopment Agency, 23 F.3d
1542, 1546 (9th Cir.1994).

App. 6
ANALYSIS
I.

Under the Lanham Act, Farmacy is liable
for counterfeiting only if Farmacy’s use of
Arcona’s mark is likely to confuse consumers.

Arcona’s complaint against Farmacy lists “Violation of Trademark Counterfeiting Act of 1984” as its
first cause-of-action. The Trademark Counterfeiting
Act of 1984 criminalizes the trafficking of counterfeit
trademark goods. 18 U.S.C. § 2320. The Act also
amended the Lanham Act, 15 U.S.C. §§ 1501 et seq., to
create stronger remedies for civil cases involving a
counterfeit trademark. See 15 U.S.C. § 1117 (allowing
for treble damages and attorneys’ fees).
Arcona argues that it need not show a likelihood
of confusion to pursue its trademark counterfeiting
claim. The “starting point for interpreting a statute is
the language of the statute itself.” Consumer Prod.
Safety Comm’n v. GTE Sylvania, Inc., 447 U.S. 102, 108
(1980). “It is a fundamental canon of statutory construction that the words of a statute must be read in
their context and with a view to their place in the overall statutory scheme.” Sturgeon v. Frost, 136 S. Ct.
1061, 1070 (2016).
Here, 15 U.S.C. § 1114 establishes the cause of action for, among other things, counterfeiting and states
that “[a]ny person who . . . use[s] in commerce any reproduction, counterfeit, copy, or colorable imitation of a
registered mark . . . which such use is likely to cause
confusion, or to cause mistake, or to deceive . . . shall

App. 7
be liable in a civil action by the registrant for the remedies hereinafter provided.” 15 U.S.C. § 1114(1)(a) (emphasis added). The plain language of the statute thus
shows that “likely to cause confusion” is a requirement
for a counterfeiting claim.
Perhaps recognizing that the two products look
little like each other, Arcona argues that a counterfeiting claim does not require a likelihood of confusion. It
points to two statutory provisions establishing various
remedies for counterfeiting that do not mention “likelihood of confusion.” First, 15 U.S.C. § 1116(d) allows
ex parte relief to seize counterfeit goods. 15 U.S.C.
§ 1116.1 Although the text of that subsection does not
reference “confusion” in defining “counterfeit mark,”
it refers to a civil action under “section 1114(1)(a),”
which (as noted above) establishes the cause of action
for counterfeiting and includes a likelihood of confusion requirement. 15 U.S.C. § 1116(d)(1)(A). Second,
15 U.S.C. § 1117 authorizes statutory and treble damages for counterfeiting, and again refers to Section
1114(1)(a), which includes a likelihood of confusion
1

15 U.S.C. § 1116(d) states in part:
“Civil Actions Arising Out of Use of Counterfeit
Marks
(1)(A) In the case of a civil action arising under section
1114(1)(a) of this title . . . with respect to a violation
that consists of using a counterfeit mark in connection
with the sale, offering for sale, or distribution of goods
or services, the court may, upon ex parte application,
grant an order under subsection (a) of this section pursuant to this subsection providing for the seizure of
goods and counterfeit marks. . . .” (emphasis added).

App. 8
requirement. 15 U.S.C. § 1117(b).2 In short, even the
two counterfeiting remedies provisions cited by Arcona underscore that a defendant is liable only if use
of a counterfeit is “likely to cause confusion.” 15 U.S.C.
§ 1114(1)(a).3
It appears that our court has not yet expressly
held that a counterfeiting claim requires a likelihood
of confusion. That said, Section 1114 addresses both
trademark infringement and counterfeit claims, and
2

15 U.S.C. § 1117(b) states in part:
“Treble Damages for Use of Counterfeit Mark.
In assessing damages under subsection (a) for any violation of section 1114(1)(a) of this title . . . in a case involving use of a counterfeit mark or designation (as
defined in section 1116(d) of this title), the court shall
. . . enter judgment for three times such profits or damages, whichever amount is greater, together with a reasonable attorney’s fee, if the violation consists of (1)
intentionally using a mark or designation, knowing
such mark or designation is a counterfeit mark (as defined in section 1116(d) of this title), in connection with
the sale, offering for sale, or distribution of goods or
services. . . .” (emphasis added).
3
The district court appeared to base its ruling in part on the
ground that the “EYE DEW” mark is not even a counterfeit. Section 1127 defines “counterfeit” as a “a spurious mark which is
identical with, or substantially indistinguishable from, a registered mark.” 15 U.S.C. § 1127. The district court appeared to construe Section 1127 to allow a court to look beyond the mark and
examine the product as a whole in determining whether the “spurious mark” is “identical with, or substantially indistinguishable”
from the registered mark. We need not resolve this issue because,
even if the mark is a counterfeit, no reasonable juror would find
a likelihood of consumer confusion under Section 1114. See infra
pp. 12–14.

App. 9
we have repeatedly held that the plain language of
Section 1114 requires a likelihood of confusion for a
trademark infringement claim. See, e.g., Stone Creek,
Inc. v. Omnia Italian Design, Inc., 875 F.3d 426, 431
(9th Cir. 2017). But we have not directly addressed it
in the context of a counterfeit claim, perhaps because
consumer confusion is generally not in dispute in most
counterfeit cases. See, e.g., Gibson Brands, Inc. v. John
Hornby Skewes & Co., 14-CV-00609 (DDP), 2016 WL
7479317, at *6 (C.D. Cal. Dec. 29, 2016) (noting case
law on counterfeit claims is “understandably thin”).
For example, the use of a counterfeit Louis Vuitton
trademark on a handbag is obviously intended to confuse consumers. Put another way, a counterfeit claim
is merely “the ‘hard core’ or first degree’ of trademark
infringement,” and there is nothing in the statutory
language of Section 1114 that suggests that a counterfeit claim should be construed differently from an
infringement claim. Id. at *5 (internal citation omitted).
Several of our decisions have followed the plain
meaning of Section 1114 and have required a likelihood of confusion for claims under that section. For
example, in Westinghouse Elec. Corp. v. Gen. Circuit
Breaker & Elec. Supply, Inc., we held that Section 1114
was “intended to protect consumers against deceptive
designations of the origin of goods, not just to prevent
the duplication of trademark.” 106 F.3d 894, 899 (9th
Cir. 1997) (cleaned up). “Thus, the important test is
whether the practice of the defendant is likely to
cause confusion, not whether the defendant duplicated

App. 10
the plaintiff ’s mark.” Id.; see also Levi Strauss & Co. v.
Shilon, 121 F.3d 1309, 1312 (9th Cir. 1997) (noting that
a counterfeit product is likely to “cause confusion, or to
cause mistake or to deceive”).
More recently, we held that “to invoke § 1117’s special civil monetary remedies against counterfeiting,” a
plaintiff must establish, among other things, that the
counterfeit mark “was likely to confuse or deceive.”
Idaho Potato Comm’n v. G & T Terminal Packaging,
Inc., 425 F.3d 708, 721 (9th Cir. 2005) (finding defendant’s unlicensed use of plaintiff ’s certification mark
constituted counterfeiting because it was likely to
cause confusion). We required a likelihood of confusion,
even though Section 1117’s civil monetary remedies
provision does not itself explicitly mention it and instead refers to Section 1114, which does.
Other circuits also read the statutory provisions to
require a likelihood of confusion for a counterfeiting
claim. See Springboards to Educ., Inc. v. Houston
Indep. Sch. Dist., 912 F.3d 805, 818 (5th Cir. 2019)
(“Likelihood of confusion is also an element of counterfeiting.”); Kelly-Brown v. Winfrey, 717 F.3d 295, 315 (2d
Cir. 2013) (dismissing counterfeiting claim after describing the marks and concluding that consumers
would not be confused).
We thus hold that a counterfeit claim requires a
showing of likelihood of confusion under Section 1114.

App. 11
II.

The court will not presume consumer confusion here because the products are not
identical.

Arcona makes the alternative argument that the
court should presume a likelihood of confusion because
Farmacy’s “EYE DEW” statement is allegedly identical
to Arcona’s mark. But even assuming the marks are
identical, there may be no presumption of consumer
confusion if the products themselves are not identical.
Put another way, a court must review the product as a
whole in determining whether an allegedly counterfeit
product will likely cause confusion.
Arcona relies heavily on a trademark infringement case, Brookfield Communications, Inc. v. West
Coast Entertainment Corp., which in dicta stated in
“light of the virtual identity of marks, if they were used
with identical products or services, likelihood of confusion would follow as a matter of course.” 174 F.3d 1036,
1056 (9th Cir. 1999) (emphasis added) (ruling that
there was no presumption of confusion because MovieBuff software was not the same product service as
moviebuff.com website); see also Stone Creek Inc., 875
F.3d at 432 (indicating “identical marks paired with
identical goods can be case-dispositive” in a case involving an “exact replica” of a competitor’s logo on the
same sofa (emphasis added)).
Here, the products at issue are not identical, as evident by a comparison of the Arcona and Farmacy products. So Brookfield’s dicta has no bearing on this case.
The question then becomes: Is there a factual dispute

App. 12
about the likelihood of confusion so that Arcona’s counterfeiting claim can survive summary judgment?
III. Summary judgment was proper because
there is no genuine dispute of material fact
about the likelihood of consumer confusion.
Finally, Arcona argues that the district court erred
in comparing the products as a whole in ruling that
there is no likelihood of consumer confusion. The district court, according to Arcona, should have limited its
analysis to the identical marks (“EYE DEW”) only—
without looking at the entire product—in assessing
consumer confusion.
This court has never adopted the rigid approach
advanced by Arcona. To the contrary, this court noted
that even “where there is precise identity of a complainant’s and an alleged infringer’s mark, there may
be no consumer confusion” if, for example, “the alleged
infringer is in a different geographic area or in a
wholly different industry.” Brookfield, 174 F.3d at 1055
(addressing trademark infringement claims and discussing cases in which companies or products had the
same names, but there was no confusion because they
competed in different geographic areas or industries).
A court should not myopically focus on only the alleged
counterfeit marks to the exclusion of the entire product
or even common sense.4 Here, while the products do
4

There may be times the mark itself is so strong in the marketplace that the use of an identical mark by itself may cause
consumer confusion, even if other aspects of the products are

App. 13
compete in the same space and same geographic area,
there are significant differences between the two products, and the marks should be “considered in their entirety and as they appear in the marketplace.” Id. at
1054 (internal quotation marks omitted).
As the district court explained, no reasonable consumer would be confused by these two products because the packaging, size, color, shape, and all other
attributes—other than the term “EYE DEW”—are not
remotely similar. For example, Farmacy’s packaging
looks distinct from Arcona’s because it features (i) multiple pictures of the Echinacea green envy plant used
in the product, (ii) a picture of the farmers, and (iii) a
description of the company.
Further, it is implausible that a consumer would
be deceived because the products had their respective
housemarks (“Farmacy” vs. “Arcona”) prominently on
the packaging. Arcona does not present evidence to dispute this, but states in a conclusory fashion that “[c]onsumers would have no way of knowing” that Arcona did
not sponsor Farmacy’s product. In trademark infringement cases, the “use of a housemark can reduce the
likelihood of confusion.” AMF Inc. v. Sleekcraft Boats,
599 F.2d 341, 351 (9th Cir. 1979), abrogated in part on
other grounds by Mattel, Inc. v. Walking Mtn. Prods.,
353 F.3d 792, 810 (9th Cir. 2003); see also Pignons S.A.
de Mecanique de Precision v. Polaroid Corp., 657 F.2d
482, 487 (1st Cir. 1981) (“[O]therwise similar marks
different. This is not such a case. As noted below, the mark here—
“EYE DEW”—is not so strong.

App. 14
are not likely to be confused where used in conjunction
with the clearly displayed name and/or logo of the
manufacturer”).
Courts—at least in the trademark infringement
context—have also considered a third party’s use of the
mark in assessing likelihood of confusion. See Springboards, 912 F.3d at 815, 817 (recognizing that third
parties used similar and identical marks, and finding
no reasonable jury could find a likelihood of confusion);
cf. M2 Software, Inc., v. Madacy Entm’t, 421 F.3d 1073,
1088 (9th Cir. 2005) (affirming summary judgment on
trademark infringement claim and reasoning that
“[u]se of similar marks by third-party companies in the
relevant industry weakens the mark at issue”). Farmacy presented evidence that other companies use the
phrase “EYE DEW” in the beauty industry. This underscores that the “EYE DEW” mark is not so unique or
strong.
Finally, there is no evidence that Farmacy’s use of
the mark “EYE DEW” was intentional. It submitted
evidence that the term “EYE DEW” was meant to describe its product and was not an intentional copying
of Arcona’s trademark. Arcona does not dispute this
evidence, but instead states without citation that
Farmacy “cannot feign ignorance” of the mark because
Arcona has been selling EYE DEW for over 18 years.
Despite Arcona’s “general, conclusory allegations of
‘willfulness,’ ” it has produced no evidence that Farmacy
intentionally copied its mark. See Pignons, 657 F.2d at
491 (finding no evidence of intent in a trademark infringement case). In addition, Farmacy’s dissimilar

App. 15
packaging and rampant use of its housemark “flatly
belie[s] any such notion.” See id.
In sum, the district court properly found that there
is no genuine issue of material fact that Farmacy’s use
of the “EYE DEW” mark would not likely cause consumer confusion.
CONCLUSION
To sustain a trademark counterfeiting claim, a
plaintiff must show a likelihood of confusion. The two
products, when viewed in their entirety, do not remotely resemble each other. The district court’s decision granting summary judgment for Farmacy is
AFFIRMED.

App. 16
United States District Court
Central District of California
ARCONA, INC.,
Plaintiff,
v.
FARMACY BEAUTY, LLC;
David C. Chung; and
Mark Veeder,
Defendants.
I.

Case No.
2:17-cv-07058-ODW (JPR)
ORDER GRANTING
DEFENDANTS’
MOTION FOR
PARTIAL SUMMARY
JUDGMENT [49]
(Filed Mar. 19, 2019)

INTRODUCTION

Plaintiff, Arcona, Inc., brings this action against
Defendants Farmacy Beauty, LLC (“Farmacy”), and
its officers, David C. Chung and Mark Veeder (collectively, “Defendants”), for various trademark infringement claims related to Plaintiff ’s “EYE DEW” mark.
Pending before the Court is Defendants’ Motion for
Partial Summary Judgment (“Motion) on Plaintiff ’s
counterfeiting claim. (Mot., ECF No. 49.) For the following reasons, the Court GRANTS Defendants’ Motion.1
II.

FACTUAL BACKGROUND

Plaintiff holds a registered trademark, Registration No. 4,706,079, in the United States for the EYE
1

After considering the papers filed in connection with this
Motion, the Court deemed this matter appropriate for decision
without oral argument. Fed. R. Civ. P. 78(b); C.D. Cal. L.R. 7-15.

App. 17
DEW mark. (Defs.’ Statement of Uncontroverted Facts
(“SUF”) 3, ECF No. 49-17.) This International Class
003 trademark includes cosmetic creams for skincare;
cosmetic preparation for skin renewal; eye cream; nonmedicated stimulating lotions for the skin; skin conditioning creams for cosmetic purposes; skin moisturizer;
and wrinkle removing skin care preparations. (First
Am. Compl. (“FAC”) Ex. 1., ECF No. 34-1.) The trademark registration provides that the “mark consists of
standard characters without claim to any particular
font, style, size, or color.” (Id.) Further, the registration
provides that it was filed on April 18, 2012, with a first
use date of January 1, 2002. (Id.)
Farmacy was organized in 2015 by Defendants
David Chung and Mark Veeder in 2015. (SUF 6.) Farmacy began selling an eye cream product entitled
“EYE DEW” in 2015. (Id. 8.) Farmacy stopped selling
this product in September 2017. (Id. 10.)

App. 18
The products are shown below:
Arcona “Eye Dew”

Arcona “Eye Dew Plus”

Farmacy “Eye Dew”

Plaintiff filed its Complaint against Defendants in
September 2017 and subsequently amended its Complaint in April 2018. (Compl., ECF No. 1; FAC.) Defendants move for partial summary judgment only as to
Plaintiff ’s counterfeiting claim. (Mot.)

App. 19
III.

LEGAL STANDARD

A court “shall grant summary judgment if the movant shows that there is no genuine dispute as to any
material fact and the movant is entitled to judgment
as a matter of law.” Fed. R. Civ. P. 56(a). Courts must
view the facts and draw reasonable inferences in the
light most favorable to the nonmoving party. Scott, 550
U.S. at 378. A disputed fact is “material” where the resolution of that fact might affect the outcome of the suit
under the governing law, and the dispute is “genuine”
where “the evidence is such that a reasonable jury
could return a verdict for the nonmoving party.” Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 248 (1986).
Conclusory or speculative testimony in affidavits is
insufficient to raise genuine issues of fact and defeat
summary judgment. Thornhill’s Publ’g Co. v. GTE
Corp., 594 F.2d 730, 738 (9th Cir. 1979). Moreover,
though the Court may not weigh conf licting evidence
or make credibility determinations, there must be
more than a mere scintilla of contradictory evidence to
survive summary judgment. Addisu v. Fred Meyer, Inc.,
198 F.3d 1130, 1134 (9th Cir. 2000).
Once the moving party satisfies its burden, the
nonmoving party cannot simply rest on the pleadings
or argue that any disagreement or “metaphysical
doubt” about a material issue of fact precludes summary judgment. See Celotex Corp. v. Catrett, 477 U.S.
317, 322-23 (1986); Matsushita Elec. Indus. Co., Ltd. v.
Zenith Radio Corp., 475 U.S. 574, 586 (1986); Cal. Architectural Bldg. Prods., Inc. v. Franciscan Ceramics,
Inc., 818 F.2d 1466, 1468 (9th Cir. 1987). Nor will

App. 20
uncorroborated allegations and “self-serving testimony” create a genuine issue of material fact. Villiarimo v. Aloha Island Air, Inc., 281 F.3d 1054, 1061 (9th
Cir. 2002). The court should grant summary judgment
against a party who fails to demonstrate facts sufficient to establish an element essential to his case when
that party will ultimately bear the burden of proof at
trial. See Celotex, 477 U.S. at 322.
Pursuant to the Local Rules, parties moving for
summary judgment must file a proposed “Statement of
Uncontroverted Facts and Conclusions of Law” that
should set out “the material facts as to which the moving party contends there is no genuine dispute.” C.D.
Cal. L.R. 56-1. A party opposing the motion must file a
“Statement of Genuine Disputes” setting forth all material facts as to which it contends there exists a genuine dispute. C.D. Cal. L.R. 56-2. “[T]he Court may
assume that material facts as claimed and adequately
supported by the moving party are admitted to exist
without controversy except to the extent that such material facts are (a) included in the ‘Statement of Genuine Disputes’ and (b) controverted by declaration or
other written evidence filed in opposition to the motion.” C.D. Cal. L.R. 56-3.
IV.

DISCUSSION

Defendants move for partial summary judgment
only on Plaintiff ’s claim for counterfeiting, that Defendants’ “Eye Dew” product is a counterfeit of Plaintiff ’s “Eye Dew” products. (See generally Mot.)

App. 21
A. Counterfeiting
The parties do not dispute the material facts. However, the parties disagree on the law.
The Lanham Act prohibits the use of a counterfeit “mark in connection with the sale, offering for
sale, or distribution of goods or services.” 15 U.S.C.
§ 1116(d)(1)(A). “A counterfeit is a spurious mark
which is identical with, or substantially indistinguishable from, a registered mark.” Id. § 1127 (internal
quotation marks omitted). Courts consider trademark
counterfeiting as the “hard core or first degree . . .
trademark infringement that seeks to trick the consumer into believing he or she is getting a genuine article, rather than a colorable imitation.” Gucci America,
Inc. v. Guess?, Inc., 868 F. Supp. 2d 207, 242 (S.D.N.Y.
2012) (citing 4 McCarthy on Trademarks § 25:10) (internal quotation marks omitted).
As this district recently recognized, “[t]he caselaw on what is required to plead identicality in a
counterfeiting claim is understandably thin, as the
majority of counterfeiting cases involve obviously identical marks.” Gibson Brands, Inc. v. John Hornby
Skewes & Co., No. CV 14-00609 DDP (SSx), 2016 WL
7479317, at *6 (C.D. Cal. Dec. 29, 2016) (internal quotation marks omitted). “The Ninth Circuit has explained that a ‘counterfeit is something that purports
to be something that it is not.’ ” Id. (quoting United Pac.
Ins. Co. v. Idaho First. Nat. Bank, 378 F.2d 62, 69 (9th
Cir. 1967)). The court in Gucci America, Inc., in reviewing the caselaw on claims for counterfeiting involving

App. 22
products, found that “courts have uniformly applied
this provision to products that are stitch-for-stitch copies of those of another brand.” 868 F. Supp. 2d at 242;
see also Idaho Potato Comm’n v. G & T Terminal Packaging, Inc., 425 F.3d 708, 721 (9th Cir. 2005) (affirming
award of counterfeiting where the defendant purchased empty bags containing the plaintiff ’s logo and
repackaged its own goods in those bags).
Plaintiff takes the position that the Court should
consider only Defendants’ use of the phrase “EYE
DEW,” and not the entire product. (Opp’n to Mot. 9,
ECF No. 58.) Although Plaintiff recognizes that its
trademark registration does not include the font, style,
size, and color, Plaintiff ’s Opposition to the counterfeit
claim focuses exclusively on the typeface and font.
(Opp’n 9-11.) The Court gives Plaintiff ’s position little
weight, particularly when Plaintiff ’s trademark registration states, “[t]he mark consists of standard characters without claim to any particular font, style, size, or
color.” (FAC Ex. 1.) For Plaintiff to now claim that the
font, style, and color of the “EYE DEW” phrase are the
bases for its counterfeit claim is disingenuous and contrary to its trademark registration.
The Court recognizes that in certain circumstances, the inclusion of a house mark on a product is
not sufficient to defeat a counterfeiting claim. See Tiffany & Co. v. Costco Wholesale Corp., 127 F. Supp. 3d
241, 254-55 (S.D.N.Y. 2015) (granting summary judgment in favor of plaintiff on counterfeiting claim where
the only difference between the parties’ rings was a

App. 23
small generic mark on the inside of the ring). That is
not the case here.
Without determining the specific level of similarity between the EYE DEW products, the Court
concludes that no reasonable jury could find that Defendants’ EYE DEW product is a counterfeit of Plaintiff ’s EYE DEW products. The only similarity between
the two products are that they both contain the phrase
“EYE DEW.” However, Defendants’ EYE DEW product
does not purport to be Plaintiff ’s products. Visually, the
products’ packaging is not identical or substantially indistinguishable. Plaintiff ’s products are tall and cylindrical, whereas Defendants’ product is short and wide.
Each product bears their respective house marks. Each
presents a distinct color and packaging scheme. Defendants’ product claims that it is a “total eye cream
with echinacea greenenvy™,” while no such claim is
made with Plaintiff ’s products. (SUF 11, 12, 14.) Although use of a different source mark indicator may
not always defeat a counterfeiting claim, Plaintiff presents no evidence that the Farmacy house mark on
the product, the dissimilar packaging, and the product itself do not nullify Plaintiff ’s counterfeiting claim.
See Gibson Brands, 2016 WL 7479317, at *6 (granting
summary judgment on a counterfeiting claim where
the plaintiff failed to present evidence that the defendant’s use of a brand mark nullified the plaintiff ’s
claim).
The Court finds it implausible that a consumer
viewing Defendants’ EYE DEW product would be
tricked into believing that the product is actually one

App. 24
of Plaintiff ’s EYE DEW products. Accordingly, partial
summary judgment for Defendants as to Plaintiff ’s
claim for counterfeiting is proper.
V.

CONCLUSION

For the foregoing reasons, the Court GRANTS Defendants’ Motion for Summary Judgment as to Plaintiff ’s claim for counterfeiting.
IT IS SO ORDERED.
March 19, 2019
/s/

Otis D. Wright
OTIS D. WRIGHT, II
UNITED STATES
DISTRICT JUDGE

App. 25
UNITED STATES DISTRICT COURT
FOR THE CENTRAL DISTRICT OF CALIFORNIA
WESTERN DIVISION
ARCONA, INC., a
California corporation,
Plaintiff,

CASE NO. 2:17-cv07058 ODW (JPRx)
JUDGMENT

v.
FARMACY BEAUTY, LLC,
a New Jersey limited liability
company, DAVID C. CHUNG,
an individual, and MARK
VEEDER, an individual,

The Hon.
Otis D. Wright, II
(Filed May 8, 2019)

Defendants.
AND RELATED
COUNTERCLAIMS
This Action arises from Plaintiff Arcona, Inc.’s
First Amended Complaint (ECF No. 34) against Defendants Farmacy Beauty, LLC, David C. Chung, and
Mark Veeder (collectively, “Defendants”) for: 1) Trademark Counterfeiting of Arcona’s U.S. Trademark Registration No. 4,706,079 (“Arcona’s ‘079 Trademark
Registration”); 2) Infringement of Arcona’s ‘079 Trademark Registration; 3) Violation of Federal Unfair
Competition; 4) Unfair Competition under California
Business and Professions Code section 17200 et seq.;
and 5) California Common Law Unfair Competition.
Defendants have asserted counterclaims seeking a

App. 26
declaration of non-infringement and cancellation of
Arcona’s ‘079 Trademark Registration.
On March 19, 2019, the Court granted summary
judgment for Defendants on Plaintiff ’s claim for counterfeiting having found, inter alia, that “no reasonable
jury could find that Defendants’ EYE DEW product is
a counterfeit of Plaintiff ’s EYE DEW products.” (ECF
No. 129.)
On April 22, 2019, the Court granted Plaintiff ’s request pursuant to Federal Rule of Civil Procedure
41(a)(2) to dismiss its remaining claims with prejudice
and Defendants’ counterclaims without prejudice.
(ECF No. 136.)
Accordingly, IT IS HEREBY ORDERED, ADJUDGED, AND DECREED that:
1.

Pursuant to the Court’s Order Granting Defendants’ Motion for Partial Summary Judgment (ECF No. 129), and Order on Plaintiff ’s
Request (ECF No. 136), judgment is entered
in favor of Defendants and against Plaintiff on
Plaintiff ’s First Cause of Action for Trademark
Counterfeiting of Arcona’s ‘079 Trademark
Registration pursuant to the Trademark
Counterfeiting Act of 1984;

2.

Plaintiff ’s Second, Third, Fourth, and Fifth
causes of action for trademark infringement
of Arcona’s ‘079 Trademark Registration and
unfair competition (Federal and State Law),
respectively, all of which are hereby DISMISSED WITH PREJUDICE;

App. 27
3.

Pursuant to the Court’s Order on Plaintiff ’s
Request (ECF No. 136), Defendants’ counterclaims for non-infringement and cancellation
of Arcona’s ‘079 Trademark Registration are
hereby DISMISSED WITHOUT PREJUDICE;

4.

All other dates and deadlines in this case are
hereby VACATED; and

5.

The Clerk of the Court shall close the case.

IT IS SO ORDERED, ADJUDGED, AND DECREED.
Dated: May 8, 2019

/s/ Otis D. Wright II
Hon. Otis D. Wright II
United States District Judge

App. 28
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
ARCONA, INC., a California
corporation,
Plaintiff-Appellant,
v.
FARMACY BEAUTY, LLC,
a New Jersey limited liability
company; et al.,

No. 19-55586
D.C. No.
2:17-cv-07058ODW-JPR
Central District
of California,
Los Angeles

ORDER
Defendants-Appellees. (Filed Nov. 9, 2020)

Before: LEE and BUMATAY, Circuit Judges, and
MOLLOY,* District Judge.
The panel has voted to deny the petition for panel
rehearing. Judges Lee and Bumatay have voted to
deny the petition for rehearing en banc, and Judge
Molloy has so recommended. The full court has been
advised of the petition for rehearing en banc, and no
judge has requested a vote on whether to rehear the
matter en banc. Fed. R. App. P. 35.
The petition for panel rehearing and the petition
for rehearing en banc are DENIED.

* The Honorable Donald W. Molloy, United States District
Judge for the District of Montana, sitting by designation.

App. 29
15 U.S.C. 1114(1) provides:
(1) Any person who shall, without the consent of the
registrant –
(a) use in commerce any reproduction, counterfeit,
copy, or colorable imitation of a registered mark in connection with the sale, offering for sale, distribution, or
advertising of any goods or services on or in connection
with which such use is likely to cause confusion, or to
cause mistake, or to deceive; or
(b) reproduce, counterfeit, copy, or colorably imitate a
registered mark and apply such reproduction, counterfeit, copy, or colorable imitation to labels, signs, prints,
packages, wrappers, receptacles or advertisements intended to be used in commerce upon or in connection
with the sale, offering for sale, distribution, or advertising of goods or services on or in connection with
which such use is likely to cause confusion, or to cause
mistake, or to deceive, shall be liable in a civil action
by the registrant for the remedies hereinafter provided. Under subsection (b) hereof, the registrant shall
not be entitled to recover profits or damages unless the
acts have been committed with knowledge that such
imitation is intended to be used to cause confusion, or
to cause mistake, or to deceive.
As used in this paragraph, the term “any person” includes the United States, all agencies and instrumentalities thereof, and all individuals, firms, corporations,
or other persons acting for the United States and with
the authorization and consent of the United States,
and any State, any instrumentality of a State, and any

App. 30
officer or employee of a State or instrumentality of a
State acting in his or her official capacity. The United
States, all agencies and instrumentalities thereof, and
all individuals, firms, corporations, other persons acting for the United States and with the authorization
and consent of the United States, and any State, and
any such instrumentality, officer, or employee, shall be
subject to the provisions of this chapter in the same
manner and to the same extent as any nongovernmental entity.

15 U.S.C. 1117 provides:
(a)

Profits; damages and costs; attorney fees

When a violation of any right of the registrant of a
mark registered in the Patent and Trademark Office, a
violation under section 1125(a) or (d) of this title, or a
willful violation under section 1125(c) of this title, shall
have been established in any civil action arising under
this chapter, the plaintiff shall be entitled, subject to
the provisions of sections 1111 and 1114 of this title,
and subject to the principles of equity, to recover (1)
defendant’s profits, (2) any damages sustained by the
plaintiff, and (3) the costs of the action. The court shall
assess such profits and damages or cause the same to
be assessed under its direction. In assessing profits the
plaintiff shall be required to prove defendant’s sales
only; defendant must prove all elements of cost or deduction claimed. In assessing damages the court may
enter judgment, according to the circumstances of the

App. 31
case, for any sum above the amount found as actual
damages, not exceeding three times such amount. If
the court shall find that the amount of the recovery
based on profits is either inadequate or excessive the
court may in its discretion enter judgment for such
sum as the court shall find to be just, according to the
circumstances of the case. Such sum in either of the
above circumstances shall constitute compensation
and not a penalty. The court in exceptional cases may
award reasonable attorney fees to the prevailing party.
(b)

Treble damages for use of counterfeit mark

In assessing damages under subsection (a) for any violation of section 1114(1)(a) of this title or section
220506 of Title 36, in a case involving use of a counterfeit mark or designation (as defined in section 1116(d)
of this title), the court shall, unless the court finds extenuating circumstances, enter judgment for three
times such profits or damages, whichever amount is
greater, together with a reasonable attorney’s fee, if the
violation consists of –
(1) intentionally using a mark or designation, knowing such mark or designation is a counterfeit mark (as
defined in section 1116(d) of this title), in connection
with the sale, offering for sale, or distribution of goods
or services; or
(2) providing goods or services necessary to the commission of a violation specified in paragraph (1), with
the intent that the recipient of the goods or services
would put the goods or services to use in committing
the violation.

App. 32
In such a case, the court may award prejudgment interest on such amount at an annual interest rate
established under section 6621(a)(2) of Title 26, beginning on the date of the service of the claimant’s
pleadings setting forth the claim for such entry of judgment and ending on the date such entry is made, or for
such shorter time as the court considers appropriate.
(c)

Statutory damages for use of counterfeit marks

In a case involving the use of a counterfeit mark (as
defined in section 1116(d) of this title) in connection
with the sale, offering for sale, or distribution of goods
or services, the plaintiff may elect, at any time before
final judgment is rendered by the trial court, to recover,
instead of actual damages and profits under subsection
(a), an award of statutory damages for any such use in
connection with the sale, offering for sale, or distribution of goods or services in the amount of –
(1) not less than $1,000 or more than $200,000 per
counterfeit mark per type of goods or services sold, offered for sale, or distributed, as the court considers
just; or
(2) if the court finds that the use of the counterfeit
mark was willful, not more than $2,000,000 per counterfeit mark per type of goods or services sold, offered
for sale, or distributed, as the court considers just.
(d) Statutory damages for violation of section
1125(d)(1)
In a case involving a violation of section 1125(d)(1) of
this title, the plaintiff may elect, at any time before

App. 33
final judgment is rendered by the trial court, to recover,
instead of actual damages and profits, an award of
statutory damages in the amount of not less than
$1,000 and not more than $100,000 per domain name,
as the court considers just.
(e)

Rebuttable presumption of willful violation

In the case of a violation referred to in this section, it
shall be a rebuttable presumption that the violation is
willful for purposes of determining relief if the violator,
or a person acting in concert with the violator, knowingly provided or knowingly caused to be provided materially false contact information to a domain name
registrar, domain name registry, or other domain name
registration authority in registering, maintaining, or
renewing a domain name used in connection with the
violation. Nothing in this subsection limits what may
be considered a willful violation under this section.

15 U.S.C. 1127 provides:
In the construction of this chapter, unless the contrary
is plainly apparent from the context –
The United States includes and embraces all territory
which is under its jurisdiction and control.
The word “commerce” means all commerce which may
lawfully be regulated by Congress.
The term “principal register” refers to the register provided for by sections 1051 to 1072 of this title, and the

App. 34
term “supplemental register” refers to the register provided for by sections 1091 to 1096 of this title.
The term “person” and any other word or term used to
designate the applicant or other entitled to a benefit or
privilege or rendered liable under the provisions of this
chapter includes a juristic person as well as a natural
person. The term “juristic person” includes a firm, corporation, union, association, or other organization capable of suing and being sued in a court of law.
The term “person” also includes the United States, any
agency or instrumentality thereof, or any individual,
firm, or corporation acting for the United States and
with the authorization and consent of the United
States. The United States, any agency or instrumentality thereof, and any individual, firm, or corporation
acting for the United States and with the authorization and consent of the United States, shall be subject
to the provisions of this chapter in the same manner
and to the same extent as any nongovernmental entity.
The term “person” also includes any State, any instrumentality of a State, and any officer or employee of a
State or instrumentality of a State acting in his or her
official capacity. Any State, and any such instrumentality, officer, or employee, shall be subject to the provisions of this chapter in the same manner and to the
same extent as any nongovernmental entity.
The terms “applicant” and “registrant” embrace the legal representatives, predecessors, successors and assigns of such applicant or registrant.

App. 35
The term “Director” means the Under Secretary of
Commerce for Intellectual Property and Director of the
United States Patent and Trademark Office.
The term “related company” means any person whose
use of a mark is controlled by the owner of the mark
with respect to the nature and quality of the goods or
services on or in connection with which the mark is
used.
The terms “trade name” and “commercial name” mean
any name used by a person to identify his or her business or vocation.
The term “trademark” includes any word, name, symbol, or device, or any combination thereof –
(1)

used by a person, or

(2) which a person has a bona fide intention to use in
commerce and applies to register on the principal register established by this chapter, to identify and distinguish his or her goods, including a unique product,
from those manufactured or sold by others and to indicate the source of the goods, even if that source is unknown.
The term “service mark” means any word, name, symbol, or device, or any combination thereof –
(1)

used by a person, or

(2) which a person has a bona fide intention to use in
commerce and applies to register on the principal register established by this chapter, to identify and distinguish the services of one person, including a unique

App. 36
service, from the services of others and to indicate the
source of the services, even if that source is unknown.
Titles, character names, and other distinctive features
of radio or television programs may be registered as
service marks notwithstanding that they, or the programs, may advertise the goods of the sponsor.
The term “certification mark” means any word, name,
symbol, or device, or any combination thereof –
(1)

used by a person other than its owner, or

(2) which its owner has a bona fide intention to permit a person other than the owner to use in commerce
and files an application to register on the principal register established by this chapter, to certify regional or
other origin, material, mode of manufacture, quality,
accuracy, or other characteristics of such person’s
goods or services or that the work or labor on the goods
or services was performed by members of a union or
other organization.
The term “collective mark” means a trademark or service mark –
(1) used by the members of a cooperative, an association, or other collective group or organization, or
(2) which such cooperative, association, or other collective group or organization has a bona fide intention
to use in commerce and applies to register on the principal register established by this chapter, and includes
marks indicating membership in a union, an association, or other organization.

App. 37
The term “mark” includes any trademark, service
mark, collective mark, or certification mark.
The term “use in commerce” means the bona fide use
of a mark in the ordinary course of trade, and not made
merely to reserve a right in a mark. For purposes of
this chapter, a mark shall be deemed to be in use in
commerce –
(1)

on goods when –

(A) it is placed in any manner on the goods or their
containers or the displays associated therewith or on
the tags or labels affixed thereto, or if the nature of the
goods makes such placement impracticable, then on
documents associated with the goods or their sale, and
(B) the goods are sold or transported in commerce,
and
(2) on services when it is used or displayed in the sale
or advertising of services and the services are rendered
in commerce, or the services are rendered in more than
one State or in the United States and a foreign country
and the person rendering the services is engaged in
commerce in connection with the services.
A mark shall be deemed to be “abandoned” if either of
the following occurs:
(1) When its use has been discontinued with intent
not to resume such use. Intent not to resume may be
inferred from circumstances. Nonuse for 3 consecutive
years shall be prima facie evidence of abandonment.
“Use” of a mark means the bona fide use of such mark

App. 38
made in the ordinary course of trade, and not made
merely to reserve a right in a mark.
(2) When any course of conduct of the owner, including acts of omission as well as commission, causes the
mark to become the generic name for the goods or services on or in connection with which it is used or otherwise to lose its significance as a mark. Purchaser
motivation shall not be a test for determining abandonment under this paragraph.
The term “colorable imitation” includes any mark
which so resembles a registered mark as to be likely to
cause confusion or mistake or to deceive.
The term “registered mark” means a mark registered
in the United States Patent and Trademark Office under this chapter or under the Act of March 3, 1881, or
the Act of February 20, 1905, or the Act of March 19,
1920. The phrase “marks registered in the Patent and
Trademark Office” means registered marks.
The term “Act of March 3, 1881”, “Act of February 20,
1905”, or “Act of March 19, 1920”, means the respective
Act as amended.
A “counterfeit” is a spurious mark which is identical
with, or substantially indistinguishable from, a registered mark.
The term “domain name” means any alphanumeric
designation which is registered with or assigned by
any domain name registrar, domain name registry, or
other domain name registration authority as part of
an electronic address on the Internet.

App. 39
The term “Internet” has the meaning given that term
in section 230(0(1) of Title 47.
Words used in the singular include the plural and vice
versa.
The intent of this chapter is to regulate commerce
within the control of Congress by making actionable
the deceptive and misleading use of marks in such
commerce; to protect registered marks used in such
commerce from interference by State, or territorial
legislation; to protect persons engaged in such commerce against unfair competition; to prevent fraud
and deception in such commerce by the use of reproductions, copies, counterfeits, or colorable imitations of
registered marks; and to provide rights and remedies
stipulated by treaties and conventions respecting
trademarks, trade names, and unfair competition entered into between the United States and foreign nations.

App. 40
[EXHIBIT 1 to COMPLAINT FOR DAMAGES
AND INJUNCTIVE RELIEF]
United States of America
United States Patent and Trademark Office
EYE DEW
Reg. No. 4,706,079
Registered
Mar. 24, 2015
Int. Cl.: 3
TRADEMARK
PRINCIPAL
REGISTER

ARCONA, INC (CALIFORNIA
CORPORATION)
28745 INDUSTRY DR.
VALENCIA, CA 91355
FOR: COSMETIC CREAMS
FOR SKIN CARE; COSMETIC
PREPARATIONS FOR SKIN
RENEWAL; EYE CREAM;
NON-MEDICATED STIMULATING LOTIONS FOR THE
SKIN; SKIN CONDITIONING
CREAMS FOR COSMETIC
PURPOSES; SKIN MOISTURIZER; WRINKLE REMOVING
SKIN CARE PREPARATIONS, IN CLASS 3 (U.S.
CLS. 1, 4, 6, 50, 51 AND 52).
FIRST USE 1-1-2002; IN
COMMERCE 1-1-2002.
THE MARK CONSISTS OF
STANDARD CHARACTERS
WITHOUT CLAIM TO ANY
PARTICULAR FONT, STYLE,
SIZE, OR COLOR.
NO CLAIM IS MADE TO THE
EXCLUSIVE RIGHT TO USE

App. 41
“EYE”, APART FROM THE
MARK AS SHOWN.
SER. NO. 85-601,826, FILED
4-18-2012.
MARK SPARACINO, EXAMINING ATTORNEY
[SEAL]
/s/ Michelle K. Lee
Director of the United States
Patent and Trademark Office

REQUIREMENTS TO MAINTAIN YOUR
FEDERAL TRADEMARK REGISTRATION
WARNING: YOUR REGISTRATION WILL BE
CANCELLED IF YOU DO NOT FILE
THE DOCUMENTS BELOW DURING
THE SPECIFIED TIME PERIODS.
Requirements in the First Ten Years*
What and When to File:
First Filing Deadline: You must file a Declaration of Use (or Excusable Nonuse) between the 5th
and 6th years after the registration date. See 15
U.S.C. §§1058, 1141k. If the declaration is accepted, the registration will continue in force for
the remainder of the ten-year period, calculated
from the registration date. unless cancelled by an
order of the Commissioner for Trademarks or a
federal court.

App. 42
Second Filing Deadline: You must file a Declaration of Use (or Excusable Nonuse) and an Application for Renewal between the 9th and 10th
years after the registration date.*
See 15 U.S.C. §1059.
Requirements in Successive Ten-Year Periods*
What and When to File:
You must file a Declaration of Use (or Excusable
Nonuse) and an Application for Renewal between
every 9th and 10th-year period, calculated from
the registration date.*
Grace Period Filings*
The above documents will be accepted as timely if filed
within six months after the deadlines listed above with
the payment of an additional fee.
*ATTENTION MADRID PROTOCOL REGISTRANTS: The holder of an international registration with an extension of protection to the United
States under the Madrid Protocol must timely file the
Declarations of Use (or Excusable Nonuse) referenced
above directly with the United States Patent and
Trademark Office (USPTO). The time periods for filing
are based on the U.S. registration date (not the international registration date). The deadlines and grace
periods for the Declarations of Use (or Excusable Nonuse) are identical to those for nationally issued registrations. See 15 U.S.C. §§1058, 1141k. However, owners
of international registrations do not file renewal applications at the USPTO. Instead, the holder must file a
renewal of the underlying international registration at

App. 43
the International Bureau of the World Intellectual
Property Organization, under Article 7 of the Madrid
Protocol, before the expiration of each ten-year term
of protection, calculated from the date of the international registration. See 15 U.S.C. §1141j. For more information and renewal forms for the international
registration, see http://www.wipoinUmadrid/en/.
NOTE: Fees and requirements for maintaining
registrations are subject to change. Please check
the USPTO website for further information.
With the exception of renewal applications for
registered extensions of protection, you can file
the registration maintenance documents referenced above online at http://www.uspto.gov.
NOTE: A courtesy e-mail reminder of USPTO
maintenance filing deadlines will be sent to
trademark owners/holders who authorize e-mail
communication and maintain a current e-mail
address with the USPTO. To ensure that e-mail
is authorized and your address is current,
please use the Trademark Electronic Application System (TEAS) Correspondence Address
and Change of Owner Address Forms available
at http://www.uspto.gov.

